                     CLOSEOUT FOR M9110003 8
     This case concerns alleged unfair treatment of a postdoctoral
researcher in the laboratory of
subject), an NSP funded researcher
        and alleged retaliation against a whistleblower who
complained to NSF about this treatment   .   The complainant,
                 , alleged that he was fired by the university in
                  complaints to NSF. OIG was informed of these
allegations on October 18, 1991.
     The complainant wrote to his Congressman about his ill
treatment in the researcherts laboratory and sent copies of his
letter to the Director of NSF and to "the Chairman, 0
ProgramN in the Division of                             at NSF. He
said that the subject had manifested an "impolite.and undignifiedN
attitude toward him and subjected him to insults and ridicule. r
                   then division director in 0 replied to the
Complainant'ster one month later, telling him that NSF was not
responsible for how faculty members administer their grants and
that he should address his complaints to the grantee university.
Three months later, the complainant again wrote to his Congressman
 (with copies to the same N S P officials) informing him that he had
been dismissed from his position earlier that month. According to
the complainant, university authorities gave as one of the reasons
for his termination that he had written letters of complaint to his
Congressman and to N S F officials.
     When we located the complainant, he assured us that he could
produce the university termination letter to document his assertion
of retaliation. He was unable to produce it, however, and now says
that he appears not to have the letter. He is also unwilling to
request a copy of the letter from the university personnel office.
The complainant's inability to provide this most basic item of
evidence to support his otherwise unsubstantiated allegation,
combined with his unwillingness to endeavor to obtain it, lends
little credence to his claims.
     The program correctly dismissed the complaints of unfair
treatment when they were originally made, noting that NSF delegates
most aspects of the administration of its grants to the
institutions that receive them. OIG determined that the alleged
unfair treatment, while regrettable, is not misconduct in science.
Because the complainant produced no evidence to support his
allegation of retaliation, we chose not to pursue this further.
     This case is closed and no further action will be taken.




Staff Scientist, Oversight
Concurrence:




                        ,
Oversight




cc: Signatories
    Inspector General
